Department         of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Drug Enforcement Administration
Reporting to the National Practitioner
              Data Bank




                       #   SERWCE$
                  a+                 %....
              +
                                             JUNE   GIBBS BROWN
             SW
             ~                               Inspector   General
             s
             ‘6
               ~++         #
                                                     MARCH 1997
                ‘%’d~a
                 >                                  OEI-12-96-00160
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of InspectorGeneral(OIG), as mandatedby Public Law
95452, is to protectthe integrityof the Departmentof Healthand HumanServices
programsas well as the healthand welfare of beneficiariesserved by them. This statutory
mission is carried out througha nationwideprogramof audits,investigations inspections,
sanctions, and fraud alerts. The InspectorGeneralinforms the Secretaryof programand
managementproblemsand recommendslegislative,regulatory,and openkionalapproaches
to correct them.


                       OffIce of Evaluation and Inspections

The Office of Evaluationand Inspections(OEI) is one of severalcomponentsof the Offkx
of InspectorGeneral. It conducts short-termmanagementand programevaluations(called
inspections)thatfocus on issuesof concern to the Department,the Congress, and the
public. The inspectionreportsprovide findingsand recommendationson the efficiency,
vulnerability,and effectivenessof departmentalprograms.

This report was preparedby Alan Levine, Senior ProgramSpecialist,underthe direction
of Mary E&h Clarke, Staff Director, Planningand CoordinationStaff.


To obtain a copy of this report, call (202) 619-0480.
                     TABLE                OF        CONTENTS

                                                                                                  PAGE

EXECUTIVE SUMMARY

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

  � “VoluntaryW
              ithdrawals’’are          not reported . . . . . . . . . . . . . . . . . . . . . . . . . 3

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

APPENDIXA:          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-l
              EXECUTIVE                        SUMMARY



PURPOSE

To review the Drug Enforcement Administrationreporting of adverse actions to the
National Practitioner Data Bank.

BACKGROUND

Hospitals and other health care organizationsuse the National Practitioner Data Bank
(Data Bank) to help with employment background checks of health care practitioners.
The Data Bank includes records of malpractice payments and adverse actions taken
against health care practitioners. Under current policy the Drug Enforcement
Administration is required to report to the Data Bank health care practitionerswho
have had their Controlled Substance Act registrationnumber revoked or suspended
because of violations of this law.

FINDING

This study found that the Drug Enforcement Administrationwas not reporting to the
Data Bar& practitionerswho voluntarilygave up their registrationnumber when
confronted with a potential adverse action againstthem. According to Drug
Enforcement Administration dat~ in 1994 and 1995 a total of 509 and 486
practitioners, respectively,voluntarilygave up their licenses rather than “show cause.”

RECOMMENDATION

We recommend that the Drug Enforcement Administrationand Data Bank officials
work together to irdcude “voluntarywithdrawals”as part of adverse action reporting to
the Data Bank.

The Administrator of the Health Resources and Services Administration,who is
responsible for the Data Bar& agreed.
PURPOSE

To review the Drug Enforcement Administrationreporting of adverse actions to the
National Practitioner Data Bank.

BACKGROUND

National Practitioner Data Bank

The National Practitioner Data Bank (Data Bank) was establishedby the Health Care
Quality Improvement Act (Act) of 1986 as a result of congressional interest in
improving the qualityof medical peer review. The Data Bank would serve as a
clearinghouse or resource to assisthospitals,State licensing boards, and other health
care entities in conducting investigationsof the qualificationsof the health care
practitioners they wish to hire, license, or to whom they wish to grant membership or
clinical privileges.

The Act specified the types of information that had to be reported to the Data Bank.
The Data Bank was to include medical malpractice payments, adverse actions taken
againstpractitioners by hospitals and other health care entities, and sanctions taken
againstpractitioners by professional societies and State medical boards. Although the
statute required such reporting in the private sector, reporting by Federal agencies
with health care programs, such as the Veterans Administration,Department of
Defense, and Department of Health and Human Semites (HHS) was optional.
However, the law also provided that the Drug Enforcement Administration(DEA)
should participate under a memorandum of agreement with HHS, which would
operate the Data Bank.

The Data Ba~ which became operational in September 1990, is operated by the
Systems Research and Applications Corporation under contract to the Public Health
Service (PHS). As of March 31, 1996, it contained 104,087medical malpractice
reports and 23,177 adverse action reports involving health care practitioners. A small
number of these adverse action reports include DEA sanctions againstdoctors. Due
to the fact that DEA had not submitted any reports since January 1995, PHS officials
were concerned and informally asked the Office of Inspector General (OIG) to review
the matter.

Reporting by the Drug Enforcement Administration

In order to practice medicine in a particularState, a doctor must be licensed by that
State’s medical board. Such licensure includes the authorityto dispense regular
prescription drugs. However, some drugs are seen as having potential for abuse apart
from their use for bona fide medical purposes, and may not be prescribed without an

                                          1

additional form of licensure. These drugs are called “controlled substances”and are
regulated by the Controlled SubstanceAct of 1970,which classifiesthem into five
categories (or “schedules”), according to their potential for abuse. In order to
prescribe or dispense these drugs, a doctor, or other State licensed health care
practitioners, must obtain (and periodically renew) a Federal Drug Enforcement
Administration registrationnumber, technically called a “Certificate of Registration.”
In addition, some States themselvesrequire a license (i.e. “controlled substance
registration”) separate from the medical license for controlled substance authori~,
other States do not have this requirement. In these States, controlled substance
authority is part of the medical license. Separate DEA registrations,and appropriate
State authorizations,are required for each State in which a practitioner maintainsa
primaxyplace of business.

As of October 1995, DEA had registrationsfor 825,000 health care practitioners
(including physicians,dentists,podiatrists,veterinarians,optometrists, and mid-level
practitioners). Registration costs practitioners $210 and is valid for 3 years. The DEA
makes available the names of all registered practitioners to the public through the
National Technical Information Service, which is part of the Department of
Commerce.

Memorandum of Agreement

Under a memorandum of agreement between DEA and HHS, DEA is to routinely
report sanctioned practitioners to the National Practitioner Data Bank. The
agreement calls for reporting all actions involvingthe denial, suspension or revocation
of a registration number. This memorandum of agreement is based on Section 432(c)
of the Health Care Quality Improvement Act which states that the HHS Secretary and
the Administrator of DEA shall enter into a memorandum of agreement to provide
for:

        ...the reporting by the Administratorto the Secretary of information respecting
       physiciansand other practitionerswhose registrationto dispense controlled
       substances has been suspended or revoked under section 304 of the Controlled
       Substances Act.

The DEA does not report such actions to other authorities,such as State medical
licensing boards or the Federation of State Medical Boardsl. However, suspensions
or revocations are published in the Federal Registeq consequently, medical boards,
hospitals, and other health care entities can learn about such actions through the
Federal Register.




    ‘An organization representing all State medical licensing boards. It maintains its own data
base on adverse actions taken by State medical licensing boardk

                                                 2

FINDING

The Drug Enforcement AdministrationDoes Not Report PractitionersWho
Voluntarily SurrenderTheir Certificate Of Registration

The DEA takes action to revoke or suspend a DEA registrationnumber when a
practitioner violates the Controlled Substance Act of 1970 (e.g., improperly selling
controlled drugs). The DEA also takes such action when a practitioner is sanctioned
by a State licensing authorityor law enforcement agency (e.g., State medical board
revoking a license for a physicianwho sexuallyabused patients).

When DEA takes action againsta registrantfor violation of the Controlled Substance
ACL several courses of action are available. The DEA may issue an Order to Show
Cause why DEA should not revoke, suspend or deny a practitioner’s registration. In
this case, if a hearing is requested the matter is heard by an AdministrativeLaw Judge
whose recommendation is forwarded to the Deputy Administrator. The Deputy
Administrator renders all final determinationswhether a hearing is requested or not.
The Final Order, which may or may not be revocation or denial, is then published in
the Federal Register. The registrantmay appeal the final ruling to the U.S. Circuit
Court of Appeals. As an alternativeto the Show Cause Order, DEA may ask the
registrantto voluntarilysurrender his or her controlled substance registration. In these
instances, the registrantis advised that he/she has a right to a hearing and that the
surrender is voluntary. When health care practitionersvoluntarilygive up their
registrationnumber, they complete Form Number 104.

According to both PHS and DEA officials, since September 1990,when the Data
Bank opened, DEA has reported a total of about 150 actions to the Data Bank.
However, according to D~      it annuallysanctions about three times the number of
providers reported to the Data Bank. These sanctions are not reported because they
involve health care providers who “voluntarily”gave up their DEA registration
number, i.e., they signed Form Number 104. According to DEA data, in 1994 and
1995 a total of 509 and 486 practitioners,respectively,voluntarilygave up their license
rather than “show cause.”

Volunta.xySurrender and Reporting by Medical Boards and Othem

Although the memorandum of agreement between DEA and HHS, as well as Section
432 of the Health Care Quality Improvement Act, indicate that only DEA revocations
and suspensions must be reporte~ other sections of the Act deal differentlywith the
“voluntarysurrender” issue. Section 422 of the Act requires medical boards to report:

               ...a description of the acts or omissions or other reasons (if known) for
              the revocation, suspension, or surrender of license, and such other
              information respecting the circumstancesof the action or surrender as
              the Secretary deems appropriate...

                                            3
Section 423 states that health care entities (i.e., hospitals, health maintenance
organizations) must report each professional review action that adverselyaffects the
clinical privileges of a physicianfor a period of longer than 30 days including the
surrender of clinical privileges under the following circumstances:

              ...while the physicianis under an investigation...orin return for not
              conducting such an investigation...

According to the House report on this legislation,Congress intended that:

             The purpose of requiring reports even for circumstancesin which
             physicianssurrender their privileges is to ensure that health care entities
             will not resort to “plea bargains” in which a physicianagrees to such a
             surrender in return for the health care entity’s promise not to inform
             other health care entities about the circumstances of the physician’s
             surrender of privileges. While such agreements may serve the
             immediate self-interestsof the two parties involved, they may jeopardize
             the health and safety of future patients...

Clearly, congressional intent seems to warrant DEA reporting of %oluntary
withdrawals.”

DEA Position on Increased Reporting

In discussions about the reporting of “voluntarywithdrawals,”DEA officials have
indicated a willingnessto report such actions, provided the reporting could be
accomplished by electronic tape or hard copy printout. The DEA also agreed to
revise the memorandum of agreement to include the reporting of “voluntarily
withdrawals”provided the increased reporting can be accomplished by either of these
methods.

RECOMMENDA~ON

Data Bank Officials Should Work With The Drug Enforcement AdministrationTo
Expand Reporting To Include Voluntary Withdrawals.

In order to assure that the Data Bank maintainsas comprehensive a data base as
possible, Data Bank officials should work with DEA to expand DEA reporting.
Such reporting would include only those voluntarywithdrawalsthat are the result of
misconduct. For example, it should exclude those health care providers who
voluntarilygive up their DEA registrationwhen they retire in order to avoid
registrationcosts.

Expansion of DEA reporting will provide credentiallingand hiring officials with
additional information with which to evaluate prospective employees.

                                            4
Since the memorandum of agreement between HHS and DEA does not now require
the reporting of voluntarywithdrawals,the agreement should be modified accordingly.
The agreement should specify which voluntarywithdrawalsare reportable and those
that are not.



The HRSA concurred with the recommendation in the draft report and indicated that
HRSA and DEA will work together on reporting issues.

A copy of the HRSA response is included as Appendix A to this report.




                                         5

APPENDIX   A




    A-1
(~L
<“   z     DEPARTMENT   OF HEALTH     & HUMAN    SERVICES




                                             IIECI81996
                                                                          f%blic Health Service



                                                                          Health Resources and
                                                                           Servioas Administration
                                                                          Rockvilie MD 20857




     TO:           Inspector      General,      DHHS

     nFROM:        Deputy      Administrator

     SUBJECT:	     OIG Draft Report:          !Il)rug 13nforceMent Administration
                   Reporting   to the        National   Practitioner  Data Bank,~[
                   0EI-12-96-O0160


     In accordance   with your         Sep~ember 6 request,   HRSA has reviewed
     the subject   draft report         and has the following   comments.

     OIG Recommendation

     Data Bank Officials          should work with the Drug Enforcement
     Administration   to        expand reporting  to include voluntary
     withdrawals.

     HRSA Comments

     HRSA agrees that Data Bank officials             should work with staff        from
     DEA to determine       the best way to provide        the Data Bank~s querying
     entities      with access    to DEA reports.       Data Bank officials      will
     neet periodically       with DEA staff       to ensure that current      reporting
     requirements,       as outlined     in the current    memorandum of agreement
     (MOE), are fully       met.     In addition,    at these periodic      meetings,
     Data Bank and DEA staff          will disc”uss other reporting
     possibilities       and ascertain     whether the current     MOA should be
     expanded.        I have asked for a status       report,  from the Division        of
     Quality     Assurance,    BHPr, concerning      current  implementation      of the
     MOA and the need to revise           or amend it.
